U.S. Department of Justice

Office of the Solicitor General
Washington, D.C. 20530

August 28, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

David Samarripa, et al. v. Gregory Kizziah, Warden, et al.,
S.CtNo. 19-164

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 1,
2019, and placed on the docket on August 5, 2019. The government's response is due on
September 4, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 4, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0 164
SAMARRIPA, DAVID, ET AL.
GREGORY KIZZIAH, WARDDEN, ET AL.

NICHOLAS GOLDIN
SIMPSON THACHER & BARTLETT LLP
425 LEXINGTON AVE.
NEW YORK, NY 10017-3954
212-455-3685
NGOLDIN@STBLAW.COM
ROBERT E. JOHNSON
JONES DAY
901 LAKESIDE AVENUE
CLEVELAND , OH 44114
216-586-3939
ROBERTJOHNSON@JONESDAY.COM
KATHERiNE B. WELLINGTON
HOGAN, LOVELLS US LLP
555 THIRTEENTH STREET, N.W.
WASHINGTON, DC 20004
202-637-5600
KATHERINE. WELLINGTON @HOGANLO VELL
S.COM

